Roderick and Solange MacArthur Justice Center
375 East Chicago Avenue
Chicago, IL 60611
macarthurjusticecenter.org

David M. Shapiro
Director, Supreme Court & Appellate Program
david.shapiro@macarthurjustice.org
O 312 503 0711
F 312 503 1272

August 25, 2020
VIA U.S. MAIL
Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
Re: Stair v. Jackson, Case No. 20-183
Dear Mr. Harris,
The petition for certiorari in this matter was filed on August 13, 2020, and placed on the
docket on August 19, 2020. Respondent has not previously sought an extension, and his response
is currently due on September 18, 2020.
Pursuant to Supreme Court Rule 30.4, Respondent respectfully requests a 30-day extension
of time to file his response up to and including October 19, 2020, as October 18, 2020 falls on a
Sunday.
This extension is necessary because undersigned counsel requires more time to review the
record in this matter and respond to the petition. In addition, undersigned counsel has the following
litigation deadlines during the period of the sought extension:
•

An opening brief in the Illinois Court of Appeals, 1st District in People v.
Plummer, No. 20-299, due on August 28, 2020;

•

A merits-stage reply brief in Jones v. Mississippi, No. 18-1259, due on September
13, 2020;

•

An opening brief and appendix in the U.S. Court of Appeals for the Tenth Circuit
in Ashaheed v. Currington, No. 20-1237, due on September 23, 2020; and

•

A reply brief in the U.S. Court of Appeals for the Third Circuit in Talley v. Clark,
No. 20-1298, due on October 1, 2020.

Hon. Scott S. Harris
August 25, 2018
Page 2
Respectfully Submitted,

David M. Shapiro
Counsel for Respondent Charles Jackson

cc: Timothy Towery Coates, Counsel for Petitioner

